App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JUDY LONG,
Plaintiff-Appellant,
v.
ALAMEDA UNIFIED
SCHOOL DISTRICT,

No. 18-16131
D.C. No.
3:16-cv-06279-JST
MEMORANDUM*
(Filed Mar. 19, 2019)

Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
Jon S. Tigar, District Judge, Presiding
Submitted March 12, 2019**
Before: LEAVY, BEA, and N.R. SMITH, Circuit Judges.
Judy Long appeals pro se from the district court’s
summary judgment in her employment action alleging
race discrimination claims under Title VII and Califor­
nia’s Fair Employment and Housing Act (“FEHA”). We
have jurisdiction under 28 U.S.C. § 1291. We review de
novo. Toguchi v. Chung, 391 F.3d 1051, 1056 (9th Cir.
2004). We affirm.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
The district court properly granted summary judg­
ment because Long failed to raise a genuine dispute of
material fact as to whether Alameda Unified School
District’s (“AUSD”) legitimate, non-discriminatory rea­
sons for its actions were pretextual. See Aragon u. Re­
public Silver State Disposal, Inc., 292 F.3d 654,658- 59
(9th Cir. 2002) (discussing elements and burden-shift­
ing framework of a discrimination claim under Title
VII and explaining that evidence of pretext must be
specific and substantial); see also Metoyer v. Chassman,
504 F.3d 919,941 (9th Cir. 2007) (“California courts ap­
ply the Title VII framework to claims brought under
FEHA”), abrogated on other grounds by Nat’l Ass’n of
African Am.-Owned Media v. Charter Commc’n, Inc.,
915 F.3d 617 (9th Cir. 2019).
The district court did not abuse its discretion in
excluding under the “sham affidavit rule” Long’s evi­
dence concerning an alleged phone call she received
because this evidence contradicted Long’s prior depo­
sition testimony. See Sprint/United Mgmt. Co. v. Men­
delsohn, 552 U.S. 379, 384 (2008) (standard of review);
Van Asdale v. Int’l Game Tech., 577 F.3d 989, 998-99
(9th Cir. 2009) (explaining sham affidavit rule).
Long has waived her challenge to the district
court’s cost award because Long failed to move the
district court to review the award. See Walker v. Cali­
fornia, 200 F.3d 624, 626 (9th Cir. 1999) (explaining
that “a party may demand judicial review of a cost
award only if such party . . . moved the district court to
review the award.”).

App. 3
We reject as without merit Long’s contentions that
the district court failed to consider her evidence.
We do not consider arguments and allegations
raised for the first time on appeal. See Padgett v.
Wright, 587 F.3d 983,985 n.2 (9th Cir. 2009). We do not
consider documents and facts not presented to the dis­
trict court. See United States v. Elias, 921 F.2d 870,874
(9th Cir. 1990) (“Documents or facts not presented to
the district court are not part of the record on appeal.”).
Long’s requests that AUSD and Stanford Univer­
sity be required to “validate,” “verify,” or submit vari­
ous information, set forth in her opening and reply
briefs, are denied.
AUSD’s motions to strike (Docket Entry Nos. 10
and 20) are denied as moot.
AFFIRMED.

App. 4
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
JUDY LONG,
Plaintiff,
v.
ALAMEDA UNIFIED
SCHOOL DISTRICT,

Case No. 16-cv-06279-JST
ORDER GRANTING
SUMMARY JUDGMENT
(Filed May 22, 2018)
Re: ECF No. 51

Defendant.
Before the Court is Defendant Alameda Unified
School District’s (AUSD’s) motion for summary judg­
ment. The Court will grant the motion.
I.

BACKGROUND1

In 2003, AUSD hired Plaintiff, Judy Long, as a
substitute teacher. ECF No. 26, First Amended Com­
plaint (“FAC”) f 12; ECF No. 51-1 at 9. In 2004, she
received a teaching assignment to teach English as a
second language (“ESL”) at Alameda Adult School.
ECF No. 51-1 at 9. In addition to ESL, Long taught
computer classes between 2007 and 2009. Id. at 9-10.
In 2010, Alysse Castro became Principal of the
Alameda Adult School. ECF NO. 51-2 at 2. In August
2012, Joy Chua was employed by AUSD as the Assis­
tant Principal of Educational Options, which included
the Alameda Adult School. ECF No. 51-3 at 1-2. Chua
The following facts are not contested.

App. 5
worked under Castro. Id. In or around August 2013,
Chua became the Interim Principal of the Alameda
County Adult School. Id. at 2.
Chua terminated Long’s employment on Decem­
ber 20, 2013. Id. at 4. Long alleges that she was termi­
nated because she is African-American. See FAC. Long
brings two causes of action: (1) discrimination/disparate
treatment - race, color, religion, sex or national origin
under Title VII of the Civil Rights Act of 1964, and
(2) discrimination on the basis of race in violation of
California Government Code section 12940. FAC at
4,8.
AUSD now moves for summary judgment.
II.

LEGAL STANDARD

Summary judgment is proper when a “movant
shows that there is no genuine dispute as to any mate­
rial fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). “A party asserting
that a fact cannot be or is genuinely disputed must
support the assertion by” citing to depositions, docu­
ments, affidavits, or other materials. Fed. R. Civ. P.
56(c)(1)(A). A party also may show that such materials
“do not establish the absence or presence of a genuine
dispute, or that an adverse party cannot produce ad­
missible evidence to support the fact.” Fed. R. Civ. P.
56(c)(1)(B). An issue is “genuine” only if there is suffi­
cient evidence for a reasonable fact-finder to find for
the non-moving party. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248-49 (1986). A fact is “material” if the

App. 6
fact may affect the outcome of the case. Id. at 248. “In
considering a motion for summary judgment, the court
may not weigh the evidence or make credibility deter­
minations, and is required to draw all inferences in a
light most favorable to the non-moving party ” Freeman
u.Arpaio, 125 F.3d 732, 735 (9th Cir. 1997).
Where the party moving for summary judgment
would bear the burden of proof at trial, that party
bears the initial burden of producing evidence that
would entitle it to a directed verdict if uncontroverted
at trial. See C.A.R. Transp. Brokerage Co. u. Darden
Rests., Inc., 213 F.3d 474,480 (9th Cir. 2000). Where the
party moving for summary judgment would not bear
the burden of proof at trial, that party bears the initial
burden of either producing evidence that negates an
essential element of the non-moving party’s claim, or
showing that the non-moving party does not have
enough evidence of an essential element to carry its ul­
timate burden of persuasion at trial. If the moving
party satisfies its initial burden of production, then the
non-moving party must produce admissible evidence
to show that a genuine issue of material fact exists. See
Nissan Fire & Marine Ins. Co. v. Fritz Cos., 210 F.3d
1099,1102-03 (9th Cir. 2000).
The non-moving party must “identify with reason­
able particularity the evidence that precludes sum­
mary judgment.” Keenan v. Allan, 91 F.3d 1275, 1279
(9th Cir. 1996). Indeed, it is not the duty of the district
court to [sic] “to scour the record in search of a genuine
issue of triable fact.” Id. “A mere scintilla of evidence..
will not be sufficient to defeat a properly supported

App.7
motion for summary judgment; rather, the nonmoving
party must introduce some significant probative evi­
dence tending to support the complaint.” Summers v.
Teichert & Son, Inc., 127 F.3d 1150,1152 (9th Cir.1997)
(citation and internal quotation marks omitted). If the
non-moving party fails to make this showing, the mov­
ing party is entitled to summary judgment. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986).
III. DISCUSSION
Long brings two causes of action: (1) discrimina­
tion/disparate treatment — race, color, religion, sex or
national origin under Title VII of the Civil Rights Act
of 1964, and (2) discrimination on the basis of race
in violation of California Government Code section
12940. FAC at 4, 8.
The Court analyzes both claims under the frame­
work established in McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973). See Texas Dep’t ofCmty. Affairs v.
Burdine, 450 U.S. 248, 252, (1981); Sandell v. TaylorListug, Inc., 188 Cal. App. 4th 297, 307 (2010). Long
bears the initial burden of proving her prima facie
case of racial discrimination, i.e., that: (1) she belongs
to a protected class; (2) she performed her job duties
satisfactorily; (3) she was subjected to an adverse
employment action; and (4) similarly situated nonAfrican-American individuals were treated more favor­
ably than she was. McDonnell Douglas Corp. u. Green,
411 U.S. 802 (1973); see also Cornwell v. Electra Cent.
Credit Union, 439 F.3d 1018,1028 (9th Cir. 2006).

App. 8
Once Long establishes a prima facie case, the bur­
den of production shifts to her employer to articulate
a “ legitimate, nondiscriminatory reason for the chal­
lenged actionE.E.O. C. v. Boeing Co., 577 F.3d 1044,
1049 (9th Cir.2009) (quoting Chuang v. Univ. of Cal.
Davis, 225 F.3d 1115,1123-24 (9th Cir.2000)). If AUSD
articulates a legitimate nondiscriminatory reason,
“then the presumption of discrimination drops out of
the picture and the plaintiff may defeat summary judg­
ment by satisfying the usual standard of proof re­
quired in civil cases.” Cornwell, 439 F.3d at 1028
(internal quotation marks and citations omitted).
The threshold for establishing a prima facie case
is “minimal.” Aragon v. Republic Silver State Disposal
Inc., 292 F.3d 654, 659 (9th Cir.2002). Even assuming,
arguendo, that Long establishes a prima facie case,
AUSD articulates a legitimate, nondiscriminatory rea­
son for its actions. AUSD contends that Long was ter­
minated because her teaching was inadequate. ECF
No. 51 at 6.
To support this contention, AUSD cites to emails
from Chua to Long about her classroom observations.
See ECF No. 51-1 at 55, 58. Chua sent Long an email
on December 5, 2013 where she described a preconfer­
ence, observation, and post observation conference.
ECF No. 51-1 at 55. Chua stated that she had spoken
with Long about her desire to see students working in
pairs and group discussion before the observation.
Chua stated that she observed her lesson on November
5,2013. Id. She was concerned that she did not see stu­
dents working in pairs, that Long was located in the

App. 9
back of the room2, and that there was not a language
skills focus in writing and listening activities. Id. Chua
noted that she had already spoken with Long about
what she would look for in her next observation. Id. As
a reminder, Chua provided Long with a list of specific
things she would be looking for in her next observation
and provided her the date of that evaluation. Id.
Chua also sent Long an email after the December
12, 2013 classroom observation. Id. at 58. Chua re­
peated her expectations and described her observa­
tions. Id. Chua listed several reasons that Long’s
teaching was not adequate for the school including
that “[n]o language objective was explicitly taught dur­
ing the class,” there “was no learning objective for the
lessons,” and “[s]tudents were not asked to answer in
full sentences during the discussion.” Id.
AUSD also notes that Alysse Castro, the former
Principal of Island High School, received a letter from
Long’s students in October 2012. ECF No. 51-2 at 2.
The letter stated:
2 Long argues that she was unfairly criticized for being in the
back of the room during an observation. ECF No. 53 at 10-11. She
contends that Chua was unfamiliar with the school’s seating ar­
rangements and that the desks are arranged in large pods with
little focus on the front of the classroom. Id. Although a Title VII
plaintiff may show pretext by putting into question whether the
employer honestly believed its purported justification for termi­
nation, “it is not important whether [the employer’s reasons] were
objectively false.” See Villiarimo v. Aloha Island Air, Inc., 281
F.3d 1054,1063 (9th Cir. 2002) (emphasis in original). Long offers
no evidence that Chua did not believe the reasons she gave for
Long’s termination.

App. 10
[W]e feel unhappy right now it has been five
weeks and we are not learning any new mate­
rial. ... [11] Last year we learned all of this we
need a higher level of English when we ask
you for more or ask questions about the les­
son, it seems like you are angry with us. [1]
Last year we finished simple present tense,
present continuous tense and much more. We
need more practice with all of this but not at
this low level. [SI] And please don’t take too
many days with the same lesson because you
give us the worksheets and we take 2 or 3 days
on the same paper.
ECF No. 53 at 33 (emphasis in original). Castro was
concerned about this letter and conducted classroom
observations where she observed “many missed oppor­
tunities for language development” and observed Long
wearing headphones in class. ECF No. 51-2 at 3. Castro
met with Long to discuss her findings and recommen­
dations. ECF No. 53 at 57. Her identified concerns in­
cluded Long “wearing headphones and listening to
music during instructional time” and “speaking in a
harsh or critical tone to students,” “lessons providing
inadequate opportunities for student verbal participa­
tion,” and “lessons providing inadequate visual support
for students.” Id. During the meeting, Long appeared
committed to improving her instruction. ECF No. 51-2
at 3.
However, Castro “did not see a marked improve­
ment in Plaintiff’s performance over the remainder of
the school year” and her performance continued to con­
cern Castro. Id. Castro left the school at the end of the

App. 11
2012-2013 school year. Id. She wanted to give her re­
placement the freedom to make her own staffing deci­
sions so she did not dismiss any teachers at the end of
that year. Id. Castro did discuss staff performance is­
sues with Chua, including the issues Castro had ob­
served with Long. Id.
AUSD has provided sufficient evidence to satisfy
its burden to articulate a legitimate, nondiscriminatory reason for Long’s dismissal. Thus, in order to sur­
vive summary judgment, Long must provide “direct or
circumstantial evidence that a discriminatory reason
more likely motivated the employer, or that the em­
ployer’s proffered explanation is unworthy of credence
because it is internally inconsistent or otherwise not
believable.” Anthoine v. N. Cent. Ctys. Consortium, 605
F.3d 740, 753 (9th Cir. 2010) (internal quotation marks
and citations omitted). Long may provide a combination
of the two kinds of evidence. See id. The Ninth Circuit
requires “very little” direct evidence of discrimination
to survive summary judgment. E.E.O.C. v. Boeing Co.,
577 F.3d 1044, 1049 (9th Cir. 2009) (internal citations
omitted). However, when plaintiffs rely “on circum­
stantial evidence, that evidence must be specific and
substantial.” Id. (internal quotation marks and cita­
tion omitted); see also Godwin v. Hunt Wesson, Inc., 150
F.3d 1217,1222 (9th Cir. 1998).3
‘As noted in Stegall, the Supreme Court’s decision in Desert
Palace, Inc. v. Costa, 539 U.S. 90, 123 S.Ct. 2148, 156 L.Ed.2d 84
(2003), undermines Godwin to the extent that it implies that di­
rect evidence is more probative than circumstantial evidence, but
upholds Godwin to the extent that a plaintiff still needs to proffer
3 ‘

App. 12
Although Long does not specifically argue pretext
in her opposition papers, the Court will consider
whether the evidence she raises in her opposition is
sufficient to survive summary judgment.4 First, Long
contends that because “Chua harbored racial animus
she plotted to destroy Ms. Long as an ESL teacher.”
ECF No. 53 at 12. Long argues that she was not an
inadequate teacher and that Chua “coordinated and
orchestrated complaints made by two groups of stu­
dents.” Id. at 14. Beyond Long’s unsubstantiated alle­
gation, there is no evidence that Chua coordinated or
prompted the student complaints about Long. In fact,
former principal Alysse Castro submitted a declaration
that she received a letter from students in October
2012, ECF No. 51-2 at 2, and Long does not accuse
Castro of coercion or discrimination, ECF No. 51-1 at
41. Long contends that Chua “masterminded” the let­
ter while she was assistant principal but rests this
specific and substantial evidence of pretext to overcome the sum­
mary judgment motion.” Njenga v. San Mateo Cty. Superinten­
dent ofSch., No. C-08-04019 EDL, 2010 WL 1261493, at *20 n.5
(N.D. Cal. Mar. 30, 2010) (citing Stegall, 350 F.3d 1061,1066 (9th
Cir. 2003). See also Cornwell, 439 F.3d at 1031 (“Although there
may be some tension ... on this point - several of our cases de­
cided after Costa repeat the Godwin requirement that a plaintiffs
circumstantial evidence of pretext must be ‘specific’ and ‘substan­
tial’”).
4 Long submitted her opposition to motion for summary judg­
ment as a pro se plaintiff. She filed a notice substituting Albert L.
Boasberg, Esq. as counsel on April 18, 2018, four weeks after she
submitted her opposition. ECF No. 55. The Court approved this
substitution of counsel on the same day. ECF No. 56. Mr. Boas­
berg appeared at the hearing to argue on behalf of Ms. Long. He
did not ask the Court for any additional time or briefing.

App. 13
assertion entirely on speculation. ECF No. 53 at 9.
Similarly, Long speculates that Chua “gave explicit in­
structions to Ms. Gonzalves on what to say” in an email
summarizing “the feedback from Student Ambassa­
dors,” but provides no evidence of such an instruction.
Id. at 11. Long does contend that “[i]n the field of ESL
teaching, it is industry known students do not file
grievances against teachers.” ECF No. 53 at 2. And she
submits a letter5 from attorney Marc Santamaria that
notes that he has “never seen, had experiences with, or
heard of ESL students filing complaints to school au­
thorities or staff.” Id. at 38. However, former principal
Castro also noted in her declaration that it is rare for
adult ESL students to directly criticize an instructor
and that the letter concerned her deeply. ECF No. 51-2
at 2. Thus, the fact that adult ESL students rarely
make complaints against teachers, if true, actually
supports AUSD’s legitimate non-discriminatory rea­
son for terminating Long’s employment. Santamaria
also opines that there are words in the letter “that in­
dicates someone influence [sic] the students in writing
the letter.” ECF No. 53 at 38. Santamaria has no basis
in fact from which to speculate about how the letter
was drafted, and his assertions are speculative.
5 AUSD argues that Marc Santamaria’s letter does not qual­
ify as expert testimony because (1) Long failed to ever disclose
Santamaria as an expert witness, (2) Santamaria does not qualify
as an expert, and (3) the proposed expert testimony fails to satisfy
the Daubert standard for admissibility. ECF No. 54 at 13-16. Be­
cause Long fails to meet her evidentiary burden even if the Court
considers Santamaria’s letter, the Court need not address these
objections.

App. 14
Next, Long argues that Chua used “inaccurate ob­
servations” to “invalidate and dismiss Ms. Long.” ECF
No. 53 at 9. Long notes that she had taken on teaching
a new level and was only given six days to make
changes before she was dismissed. ECF No. 53 at 5.
However, she does not dispute the evidence provided
by AUSD that there were legitimate concerns about
her teaching prior to December 2013. See ECF Nos. 511 at 54-59; 51-2. Long also contends that other teachers
taking on new ESL levels were given support and that
only she was criticized and ultimately fired. ECF No.
53 at 10. “A showing that [AUSD] treated similarly sit­
uated employees outside [Long’s] protected class more
favorably would be probative of pretext.” See Vasquez
v. Cty. of Los Angeles, 349 F.3d 634, 641 (9th Cir. 2003),
as amended (Jan. 2,2004). However, Long has not shown
that these other employees were similarly situated.
“[I] n general, we have upheld inferences of discrimina­
tory motive based on comparative data involving a
small number of employees when the plaintiff estab­
lishes that he or she is ‘similarly situated to those em­
ployees in all material respects.Beck v. United Food
& Commercial Workers Union, Local 99, 506 F.3d 874,
885 (9th Cir.2007) (emphasis added) (quoting Moran u.
Selig, 447 F.3d 748, 755 (9th Cir.2006)). Long has not
provided evidence that the other employees in question
were sufficiently similarly situated. For example, she
has provided no evidence that the other teachers she
identifies had engaged in similarly problematic con­
duct. See, e.g., Vasquez u. Cty. of Los Angeles, 349 F.3d
634, 641 (9th Cir. 2004) (employee not similarly situ­
ated where he “did not engage in problematic conduct

App. 15
of comparable seriousness to that of [plaintiff]”); Ara­
gon v. Republic Silver State Disposal Inc., 292 F.3d 654,
663 (9th Cir. 2002) (evidence that three of four employ­
ees laid off were white did not “account for possible
nondiscriminatory variables, such as job performance”).
In fact, on the question of discipline, the evidence Long
provides weighs against a finding of substantial simi­
larity. That evidence shows that three Adult School
teachers were disciplined — two of whom, including
Long, were African-American, and one of whom was
white. The other two teachers “improved and met per­
formance requirements,” while Long “failed to meet
performance requirements [and was] terminated.” ECF
No. 53 at 78.
Long also argues that AUSD’s proffered explana­
tion is unworthy of credence because she was a suc­
cessful ESL teacher. ECF No. 53 at 15-16. She notes
that students did work in groups during her latest ob­
servation and that her students were successful on ex­
ams. Id. She also provides recommendations from prior
employers and evaluations from former Distract [sic]
administers [sic] dated in 2004 and 2011.6 ECF No. 53
and 41-48. Past observations do not contradict AUSD’s
evidence about Long’s employment at Alameda Adult
School around the time of termination. See Chew v.
City & Cty. of San Francisco, No. 13-CV-05286-MEJ,
2016 WL 631924, at * 13 (N.D. Cal. Feb. 17,2016), aff’d,
6 AUSD argues that the Court should not consider Long’s ex­
hibits because she failed to authenticate them. ECF No. 54 at 12.
The Court will not rule on this objection because Long has not met
her burden even when the exhibits are considered.

App. 16
714 F. App’x 687 (9th Cir. 2017) (noting that declara­
tions from some subordinates stating that plaintiff was
a good supervisor did not contradict other evidence of
plaintiff’s deficiencies). Long’s subjective beliefs about
her own teaching adequacy also cannot create a genu­
ine issue of material fact. See Cornwell, 439 F.3d at
1028 n.6 (“A plaintiff may not defeat a defendant’s mo­
tion for summary judgment merely by denying the
credibility of the defendant’s proffered reason for the
challenged employment action.”) Long also submits
materials used in her ESL lessons and the letter from
Santamaria stating that her materials match standard
student learning objectives.7 ECF No. 53 at 37. How­
ever, this argument is irrelevant as AUSD does not
claim to have terminated Long for using improper ma­
terials.
Long also argues that she has evidence of racial
discrimination based on her allegation that Chua
called her on December 20,2013 to make a racially dis­
paraging remark. ECF No. 53 at 17. Specifically, Long
alleges that on that date, Chua called her without iden­
tifying herself and said, “Black nigger.” Long acknowl­
edges that the telephone call did not come from Chua’s
telephone number, but argues that the telephone call
came from the same Southern California area code as
Chua’s telephone number. ECF No. 53 at 17. Long also
states that she recognized Chua’s voice.
7 AUSD argues that Long failed to authenticate her exhibits,
including the materials, and that Marc Sanatamaria should not
qualify as an expert. ECF No. 54 at 12-16. As discussed above, the
Court will not rule on these objections.

App. 17
Long made this allegation for the first time in her
brief opposing summary judgment. Notably, Long was
asked three separate times during her deposition
whether she had any reason to believe that Chua had
terminated her based on her race. ECF No. 51-1 (Long
Depo.) at 112:1-2; 114:25-115:10; 116:16. In response,
Long identified Chua’s purported lack of a valid reason
for termination; Chua’s treatment of other AfricanAmerican employees; and Chua’s treatment of other,
non-African-American ESL teachers. But she did not
identify Chua’s phone call.
The Court concludes that Long’s allegation about
Chua’s alleged phone call must be stricken pursuant to
the sham affidavit rule. The Ninth Circuit has ex­
plained the rule as follows:
“ ‘The general rule in the Ninth Circuit is that
a party cannot create an issue of fact by an
affidavit contradicting his prior deposition
testimony.’” Van Asdale [u. Int’l Game Tech.,
577 F.3d 989, 998 (9th Cir. 2009)] (quoting
Kennedy v. Allied Mut. Ins. Co., 952 F.2d 262,
266 (9th Cir.1991)). This sham affidavit rule
prevents “a party who has been examined at
length on deposition” from “raisfing] an issue
of fact simply by submitting an affidavit con­
tradicting his own prior testimony,” which
“would greatly diminish the utility of sum­
mary judgment as a procedure for screening
out sham issues of fact.” Kennedy, 952 F.2d
at 266 (internal quotation marks omitted);
see also Van Asdale, 577 F.3d at 998 (stating
that some form of the sham affidavit rule is

App. 18
necessary to maintain the principle that sum­
mary judgment is an integral part of the fed­
eral rules). But the sham affidavit rule “ ‘should
be applied with caution’ ” because it is in ten­
sion with the principle that the court is not to
make credibility determinations when grant­
ing or denying summary judgment. Id. (quot­
ing Sch. Dist. No. 1J v. ACandS, Inc., 5 F.3d
1255,1264 (9th Cir.1993)). In order to trigger
the sham affidavit rule, the district court must
make a factual determination that the contra­
diction is a sham, and the “inconsistency be­
tween a party’s deposition testimony and
subsequent affidavit must be clear and unam­
biguous to justify striking the affidavit.” Id. at
998-99.
Yeager v. Bowlin. 693 F.3d 1076, 1080 (9th Cir. 2012).
In applying this rule, “a district court may find a dec­
laration to be a sham when it contains facts that the
affiant previously testified he could not remember.” Id.
However, “newly-remembered facts, or new facts, ac­
companied by a reasonable explanation, should not
ordinarily lead to the striking of a declaration as a
sham.” Id. Given the extreme nature of the epithet in
Chua’s alleged phone call to Long, the Court must re­
gard the absence of any mention in her deposition as a
contradiction. Long provides no explanation for this
contradiction in her brief, however. At the hearing on
this motion, the Court asked Long’s attorney whether
Long had any explanation for this contradiction, and
he offered none. Accordingly, the Court will not con­
sider this evidence.

App. 19
Finally, Long argues that another black employee,
Rachel Williams, was not re-hired. ECF No. 53 at 2122. However, the record does not establish that Chua
or any other AUSD employee acted with racial animus
towards Williams. See Anthoine, 605 F.3d at 753-54
(“Evidence that an employer terminated all three of its
male employees on the same day could show genderbased animus. In this case, however, [plaintiff] has not
offered any specific evidence about the circumstances
in which the other men were terminated.)
CONCLUSION
Long has not met her burden of offering “direct or
circumstantial evidence that a discriminatory reason
more likely motivated the employer, or that the em­
ployer’s proffered explanation is unworthy of credence
because it is internally inconsistent or otherwise not
believable.” Anthoine, 605 F.3d at 753. There is no tri­
able issue of fact as to the ultimate issue of race-based
discrimination. Defendant’s motion for summary judg­
ment is granted.
IT IS SO ORDERED.
Dated: May 22, 2018
/s/

Jon S. Tigar
JON S. TIGAR
United States District Judge

App. 20
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JUDY LONG,
Plaintiff-Appellant,
v.
ALAMEDA UNIFIED
SCHOOL DISTRICT,
Defendant-Appellee.

No. 18-16131
D.C. No.
3:16-cv-06279-JST
Northern District
of California,
San Francisco
ORDER
(Filed May 24, 2019)

Before: LEAVY, BEA, and N.R. SMITH, Circuit Judges.
Long’s petition for panel rehearing (Docket Entry
No. 23) is denied.
No further filings will be entertained in this closed
case.

App. 21
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
BEFORE THE HONORABLE JON S. TIGAR
JUDY LONG,

)
)

Plaintiff,
vs.

ALAMEDA UNIFIED
SCHOOL DISTRICT,
Defendant.

)

No. C 16-6279 JST

)
)
)
)

San Francisco, California
Thursday
May 3, 2018
2:00 p.m.

TRANSCRIPT OF PROCEEDINGS
APPEARANCES:
For Plaintiff:

ALBERT LOEB BOASBERG
Attorney at Law
333 Gellert Boulevard
Suite 207
Daly City, California 94015

For Defendant: LEONE & ALBERTS, APC
2175 N. California Boulevard
Suite 900
Walnut Creek, California 94596
BY: JIMMIE EMILE JOHNSON, ESQ.
Also Present:

JUDY LONG

Reported By: Debra L. Pas, CSR 11916,
CRR, RMR, RPR
Official Reporter - US District Court
Computerized Transcription By Eclipse

App. 22
[2] Thursday - May 3. 2018

2:06 p.m.

PROCEEDINGS
- -000 - THE CLERK: Calling Civil Case 16-6279,
Judy Long versus Alameda Unified School District.
Counsel, will you please approach and make your
appearances.
MR. JOHNSON: Good morning, your Honor.
Jimmie Johnson on behalf of defendant.
MR. BOASBERG: Good morning, Your Honor.
Albert Boasberg on behalf of plaintiff
THE COURT: Welcome. I think Ms. Long is
here, too.
Welcome.
MR. BOASBERG: Yes.
THE COURT: The matter is on calendar for
defendant’s summary judgment motion. I always read
all the briefs. I did that here, too.
I also read every page attached to the plaintiff’s
opposition and most of the deposition testimony that
was submitted by the defendant. So I’m represented to
proceed this afternoon.
Let me get a couple things out of the way. First,
there doesn’t need to be any discussion of whether Mr.
Santamaria’s letter is admissible because of an alleged
failure to disclose under Rule 26. There was a failure

App. 23
to disclose under Rule 26, [3] but exclusion is a remedy
of last resort under Rule 37. And the defendant took
Mr. Santamaria’s deposition in February 2018. So I
don’t think I would be able to find the degree of preju­
dice that is necessary to trigger the Rule 37 exclusion
rule.
It doesn’t mean that Mr. Santamaria’s opinion suc­
ceeds on the merits, but it does mean that I’m not going
to exclude it because of failure to disclose.
The parties should discuss whatever they want
this afternoon. We’ve intentionally not left other mat­
ters on calendar to give you all a little more time at the
podium, but the parties might want to focus on the fol­
lowing things.
First, there is a lot of discussion in the record
about whether the plaintiff felt that she was meeting
good professional standards for ESL teaching, but I
don’t think that’s the standard. I think the standard
under Ninth Circuit law is whether the defendant hon­
estly believed in its reasonable basis for termination.
A lack of performance is a reasonable basis, so the
question is: Did the defendant have an honest belief
that there was this underperformance?
There is a collateral question about what the right
metrics are. I wasn’t able to find any in circuit author­
ity on whether the employee has to show that she sat­
isfied the employer’s metrics as opposed to some other
metric, like [4] Mr. Santamaria’s reference, sort of, to a
kind of community standard.

App. 24
The defendant cites a Fourth Circuit case for that
proposition. It has been adopted by a couple District
Courts in the circuit. I can’t find any authority that
goes the other way. That seems reasonable to me.
And then I think there’s a big issue about whether
the Court should invoke the Sham Affidavit Rule in
this case. The defendant doesn’t cite it, but it turns out
there is authority in the Ninth Circuit for the proposi­
tion that if the plaintiff witness forgets things, is not
able to recall things at deposition and then testifies to
those things in declaration in opposition to the sum­
mary judgment, the Court can disregard the declara­
tion under the Sham Affidavit Rule. But it’s not to be
done lightly.
The Sham Affidavit Rule should be applied with
caution because its intentioned with the principle that
the Court is not to make credibility determinations
when granting or denying summary judgment. So the
Court can only invoke that rule if the Court makes a
factual determination that the contradiction is, in fact,
a sham. And the Court also has to find that the incon­
sistency between a party’s deposition testimony and
the subsequent affidavit is clear and unambiguous so
as to justify striking the affidavit.
I’m relying principally on a Ninth Circuit case
called [5] Yaeger versus Bowlin, 693 F.3d 1076 at Pages
1080 to 1081. The case is still good law and it’s been
cited approvingly in a subsequent memorandum dispo­
sition more recently.

App. 25
But I’m sure you have many other issues that you
also wanted to discuss. Mr. Johnson, you’re the moving
party. You can go first.
MR. JOHNSON: Yes, your Honor.
In regards to the three issues that you just
brought up, is there any order in which you would like
the defendants to respond to those?
THE COURT:

No.

MR. JOHNSON: Just taking them in re­
verse order, just because it’s most clear in my memory.
The Sham Affidavit Rule, first, in and of itself re­
quires a sworn declaration, which there is none in this
matter. There is not a single declaration presented to
this Court, one, to authenticate any of the documents
submitted in opposition; nor, two, any of the outlandish
statements that the plaintiff wishes to present.
So first of all, there is no sworn testimony to begin
with. So the Sham Affidavit Rule doesn’t even exist be­
cause there is no testimony for which -- to support the
allegation.
Secondly, in terms of the Sham Affidavit Rule,
there is in the - when we get to the pretext part of the
McDonnell Douglas test, there has to be substantial
evidence. Let’s just take it [6] for face value of its truth
of what plaintiff has alleged in her opposition.
She claims that she received a call from a 310 tel­
ephone number - not the 310 telephone number of the
principal, but just a random 310 telephone number of

App. 26
someone she doesn’t know — who allegedly said, I be­
lieve the term was “black nigger” and then apparently
hung up. And she only thinks that it sounded like Ms.
Chua.
So we have -THE COURT: She said she recognized the
voice. That’s a little stronger than “sounded like.”
MR. JOHNSON:
THE COURT:

Okay.

So let me ask you a few ques­

tions.
MR. JOHNSON:

Sure.

THE COURT: Do you disagree that under
the Evidence Code that if somebody — that if a witness
testifies that he or she recognizes another person’s
voice and they have an adequate basis and experience
from which they could recognize that voice, that the
testimony is otherwise admissible?
MR. JOHNSON: It’s possible, but I don’t
believe the foundation has been set in this matter.
THE COURT: You don’t think there is a
sufficient basis of experience on Ms. Long’s part?
MR. JOHNSON: No. As Ms. Long suggests,
she was only there for three months, had maybe two or
three conversations [7] with her. And then all of a sud­
den a person picks up the phone, says “black nigger”
and hangs up. At least that’s the way I read the asser­
tion set forth in the opposition.

App. 27
So I don’t believe that she’s set the foundation to
set forth that, yes, she could — she had the necessary
background to definitively determine that this was ab­
solutely Ms. Chua.
THE COURT: Let me tell you where I’m
coming from on this. Because I think you have some
winning arguments to make today, but this is definitely
not one of them.
MR. JOHNSON:

Okay.

THE COURT: We’re at summary judg­
ment. All ties go to the house. Every reasonable infer­
ence is to be drawn in the plaintiff’s favor.
So I would have to conclude that basically no rea­
sonable trial judge would allow her to testify that she
recognized Ms. Chua’s voice, even though this is her
principal at this school. That’s a tough argument for
you to make.
MR. JOHNSON:

Fair enough, Your Honor.

ITHE COURT:

Wait.

MR. JOHNSON:
THE COURT:
I’m trying to help you.

Okay.

It may not seem like it, but

MR. JOHNSON:

Okay.

THE COURT: Because I’m trying to focus
our time on the things that are productive.

App. 28
[8] So I think actually she is allowed to testify to
that, putting the Sham Affidavit issue to one side. She
recognized the voice.
In a race discrimination case at the summary
judgment stage if at the time of termination the super­
vising employee who made the termination decision
calls the plaintiff and says “black n word,” that is at
least some evidence, unambiguous evidence, of racial
animus. That’s a tough phone call.
But you can say it’s insubstantial and you can be­
lieve it didn’t happen, but believing that it didn’t hap­
pen, given the credibility — given the Court’s inability
to make credibility calls or believing that it’s not sub­
stantial evidence probably are not going to be your
strongest arguments.
MR. JOHNSON:

Moving on then.

So I would then fall back to the point there still
isn’t any testimony, verified under oath testimony, to
that degree. It’s just an assertion made in an opposi­
tion briefing.
And, secondly, as part of the Sham Affidavit Rule,
it is for the Court to decide. Is this something that
someone would likely forget in testimony?
As set forth in the documentation presented to the
Court, I specifically asked her: Is there anything that
you believe — any reason you believe that this was ra­
cially motivated? She gave an answer.

App. 29
And I believe the document will show you I fol­
lowed up: [9] Okay, is there anything else? And she
said: No, nothing I can think of.
So she’s going to now say: I couldn’t remember
somebody calling me up on random on the day of her
termination, said “black nigger” and hung up the
phone? And I completely forgot that? I don’t believe
that that satisfies the Sham Affidavit bar.
THE COURT: That argument is stronger.
MR. JOHNSON: In terms of the correct
standard in regards to whether plaintiff met standards
or whether the employee had to meet the — had to meet
the legitimate expectations of the employer, I think the
answer is obvious. Because we have to remember, this
is a question of racial discrimination; right? Did some­
body have a racial bias towards this person?
So the question is: Are you meeting my expecta­
tions? Right? “Yes” or “no”? Are those expectations based
on bias or not?
It’s not: Hey, if you - if you were doing a great job
but you didn’t meet my expectations, that’s not illegal.
But if you were meeting my expectations but I still
fired you because of race, that’s not legal. That’s viola­
tive of the Title VII.
So in terms of whether the standard is meet ex­
pectations or simply plaintiff was doing a good job, I
think just based on [10] what we’re talking about, what
Title VII is talking about, what the - what the Califor­
nia equivalent of Title VII is talking about, it seems

App. 30
clear that it should be a meets expectations. Because
if someone is meeting the expectations of plaintiff —
whether they are meeting an objective standard or not,
but whether they are meeting the subjective expecta­
tions of the plaintiff goes towards whether racial bias
was a key or not in the termination decision.
I believe, Your Honor -- and I could be wrong. I be­
lieve I’ve touched upon the points that you have asked
for and if — I would be more than happy to answer any
additional questions or if you have any clarification,
but if that is it, the defendant rests on the papers.
THE COURT: All right. Thanks.
Mr. Boasberg.
MR. BOASBERG:

Thank you, your Honor.

First of all, thank you for allowing me to represent
the plaintiff in this case. I’ve come in late in the day, to
say the least.
I found Ms. Long’s opposition to be very articulate,
which would be an admirable quality for any teacher
to have. I think there is an issue as to whether or not
there were lesser steps than terminating Ms. Long
that the school district could have taken.
Why did they just absolutely fire her? I mean,
we’re [11] dealing in a question of circumstances.
- There is no direct evidence, there never is, of discrimi­
nation. It has to be a circumstantial proof.

App. 31
And I think the issue that leaps out at anyone in
this case is: Is there an objective standard for judging
a teacher’s performance?
The defense has not suggested any. Dr. Santamaria, for all of his failings, did suggest some ele­
ments of an objective standard by which she should
be judged.
Looking over the defense papers, what standard
did the school district use when they called Mrs. Long’s
performance to be inadequate? There are statements
from her students in the record. What standard did the
students use to judge her expertise and are they ex­
perts on determining the adequacy of a teacher’s per­
formance? After all, Ms. Long also has statements from
her students that say she was a good teacher.
I believe that Mrs. - Ms. Long’s expert, Dr. Santamaria, does raise issues of fact as to her competency.
Ms. Chua observed the plaintiff for only six days,
which is hardly a reasonable objective opportunity for
her to make a judgment. I mean, a judgment involving
her professional life, Ms. Long’s professional life.
And it must be remembered that Ms. Long’s stu­
dents did well on tests, which I think is also an index
or at least an indicia of her performance and her ability
as a student [sic].
[12] It seems that there is circumstantial evidence
here that would impel a finding, at least in a jury, to for - to finding a discrimination as the real reason for
Ms. Long’s termination.

App. 32
And the Court must remember that in Ms. Long’s
opposition, Ms. Chua herself was criticized on an eval­
uation for not allowing teachers more liberties in test­
ing and allowing her teachers to use new methods.
As the Court indicated, it’s not the Court’s func­
tion at this point to resolve issues of fact, but just to
decide whether such facts exist warranting a trial on
the merits. And we submit that there is sufficient evi­
dence to defeat a Motion for Summary Judgment.
THE COURT:

Thank you, Mr. Boasberg.

MR. BOASBERG:

Thank you.

MR. JOHNSON: Thirty seconds, Your Honor?
THE COURT:

Sure.

MR. JOHNSON: Just - you said, well,
could they have done anything else? That’s not a stand­
ard under Title VII.
And, well, we should look at objective standards.
Well, let’s look at objective standards. All right. Let’s
say she met all the objective standards, and let’s say
Ms. Chua made a mistake and just had different stand­
ards, but it was only because of different standards
that she terminated her. It doesn’t mean it was because
of race bias or age bias or [13] anything else.
Making a mistake - and there is case law saying
it. Making a mistake is not a violation of Title VII. Ter­
minating someone because of racial bias —

App. 33
THE COURT: Could I ask you to slow down
just a tad? We have all the time we need.
MR. JOHNSON: Terminating someone be­
cause of racial bias is a violation of Title VII. And as we
set forth in the papers, there is zero evidence before the
Court suggesting that.
I submit.
THE COURT: Mr. Boasberg, you can have
the last word if you want it.
MR. BOASBERG: Submitted, your Honor.
THE COURT: All right. Thank you, folks.
Motion under submission.
(Proceedings adjourned.)

CERTIFICATE OF OFFICIAL REPORTER
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
matter.
/s/

Debra L. Pas
Debra L. Pas, CSR 11916. CRR, RMR, RPR
Thursday, July 26, 2018

App. 34
EXHIBIT 7
LOUIS A. LEONE, ESQ. (SBN 099874)
BRIAN DUUS, ESQ. (SBN 263403)
JIMMIE E. JOHNSON, ESQ. (SBN 223344)
LEONE & ALBERTS
2175 N. California Blvd., Suite 900
Walnut Creek, CA 94596
Tel: (925) 974-8600
Fax: (925) 974-8601
E-Mail: lleone@leonealberts.com
bduus@leonealberts.com
Attorneys for Defendant
ALAMEDA UNIFIED SCHOOL DISTRICT
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
JUDY LONG,
Plaintiff,
v.
ALAMEDA UNIFIED
SCHOOL DISTRICT,
Defendant.

Case No. 3:16-cv-06279-JST
DECLARATION OF JOY
L. CHUA IN SUPPORT OF
DEFENDANT ALAMEDA
UNIFIED SCHOOL
DISTRICT’S MOTION FOR
SUMMARY JUDGMENT;
OR IN THE ALTERNATIVE
PARTIAL SUMMARY
JUDGMENT
DATE: April 19, 2018
TIME: 2:00 pm
PLACE: Crtrm. 9
Trial Date: None Set

App. 35
I, JOY L. CHUA, declare:
1. I have personal knowledge of the facts stated
in this declaration and, if called as a witness, I can tes­
tify competently with respect thereto.
2. I am a school administrator with approxi­
mately five years of experience as site leader in Califor­
nia schools. I am currently employed by the Alameda
Unified School District (“District”) as its Principal for
the Alameda Adult School (“Adult School”). I also have
approximately 8 years of teaching experience.
3. In August 2012,1 was employed by the District
as the Assistant Principal of

providing one-word answers to her verbal questions, I
was dissatisfied with the pace of instruction, breadth
of matters taught, and manner in which Plaintiff
taught the class. Later that same day, I discussed with
Plaintiff my observations and dissatisfaction with her
performance. I advised that I would soon conduct an­
other observation of her class, and provided a number
of improvements I wanted to see.
9. On or about December 5, 2013, I received a
“student ambassador” report from the ESL coordina­
tor, Lisa Gonzalves, regarding Plaintiff’s class. “Stu­
dent ambassadors” go to classes and talk with students
outside the presence of teachers, and provide the coor­
dinator with feedback from those discussions. A true
and correct copy of that report is attached to this dec­
laration as Exhibit B. My impression after reading the

App. 36
report was that the students were still dissatisfied with
the pace of instruction and breadth of matters taught.
10. That same day, on December 5, 2013,1 sent
Plaintiff an email. The email recapped of [sic] our pre­
vious conversation concerning the November 21 obser­
vation, advised that I would observe her class again on
December 11, 2013, and listed the improvements I
wanted to see during that second observation. At­
tached hereto as Exhibit C is a true and correct copy of
that email.
11. On December 11, 2013, I again observed
Plaintiff’s class from 6:43 p.m. to 7:31 p.m. During the
class, I observed Plaintiff calling on students to answer
the question: “Are your goals similar to Jose?” for ap­
proximately ten minutes. For the rest of the class,
Plaintiff had the students work in groups to write two
to three sentences describing each picture for a total
of six pictures. Finally, Plaintiff then had only three
students read their sentences out loud. Again, I was
dissatisfied with the pace of instruction, breadth of
matters taught, and manner in which Plaintiff taught
the class. The next day, December 12, 2013, I had a
meeting with Plaintiff, during which I advised that her
teaching was inadequate for several reasons.
12. On December 17, 2013,1 had another meet­
ing with Plaintiff. During this meeting, I advised that her
employment would end on December 20 because of the

App. 37
Student ambassador’s visit to Judy’s Intermediate
Low Class - Weds Dec. 4
* This visit was conducted only in English
1. When asked if they knew how many levels of ESL
were present on campus, all but 2 knew there were 6
levels.
2. When asked if they knew what level they were in,
they all knew!
3. When asked how much they practice English out­
side of class 75% said they practice at work or with
their kids. Only 1 student said the only practice she got
was in class. The ambassadors offered them sugges­
tions on how to study on their own.
4. When asked if they had any suggestions for their
class, the students said the following:
•

Students stated that they wanted more work,
more rigor in their classes, that the pace is a
little too slow. They would like to cover a wider
variety of topics/content during each class pe­
riod.

•

Students stated they would like the [sic] prac­
tice their English speaking more in class. Spe­
cifically, they don’t want to be paired with
same-language classmates, rather, they want
to be paired with someone who doesn’t speak
their language so they are forced to practice
their English. They mentioned that recently
they had a sub who scolded them every time
they spoke their native language in class, and
they liked the strictness!

App. 38
•

It seemed to be implied that they wanted more
dynamic, communicative activities, things that
involved more standing up, moving around,
conversing with a variety of classmates.

The students made no mention of facilities.
5. When asked if they had any questions about their
school, some students had questions about the GED
program, and others wanted to know what the protocol
is for advancing to the next level. The ambassadors
gave them the necessary information.
The ambassadors stated that only 1 or 2 of the stu­
dents remained quiet during the visit, while the rest
participated and shared their thoughts.
Thanks Judy!

App. 39
EXHIBIT 24
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
JUDY LONG,
Plaintiff,
v.
ALAMEDA UNIFIED
SCHOOL DISTRICT,
Defendant.

)
)

Case No.:
16-CV-06279 JST (MEJ)

)
)
)
)
)

DECLARATION OF
ALYSSE CASTRO

I, ALYSSE CASTRO, declare under penalty of perjury
as follows:
1.

I am a school administrator with 12 years’ experi­
ence as a site leader in California schools. I am
currently employed by the San Francisco Unified
School District as its Executive Director of Alter­
native High Schools.

2.

From August 2004 through June 2012,1 was em­
ployed by the Alameda Unified School District as
the Principal of Island High School, and other al­
ternative program. I became the principal of Adult
School in 2010. Adult School provided English as
a Second Language (ESL), Family Literacy, and
GED/High School Diploma classes to student’s
over 18 years of age. Island High School was a
continuation school which provided an alternate
pathway to high school graduation for students
who were overage [sic] and undercredited.

App. 40
3.

Plaintiff Judy Long was employed as an at-will
ESL teacher during the entirety of my time as
Principal of Adult School. During that time, I had
primary responsibility for evaluating Plaintiff’s
job performance and conduct. During a portion of
my time at Adult School, Joy Chua served as my
Vice Principal.

4.

During the 2010-11 school year, I made brief infor­
mal visits to the classrooms of all ongoing Adult
School teachers. In the limited observations I did
make, I noted that Plaintiff had established a good
personal rapport with her students. I also found
Plaintiff to be collegial with me and other Adult
School staff.

5.

In October 2012,1 received a copy of a letter ad­
dressed to Plaintiff that had been signed by four­
teen students in Plaintiff’s ESL class. I was not
involved in the creation of the letter in any way.
The letter noted that students “were not learning
any new material” in Plaintiff’s class and instead
were relearning material covered the previous
year. The students also noted that “it seems like
[Plaintiff] is angry” when students ask for more
rigorous instruction.

6.

The letter concerned me deeply. The students who
brought it to me appeared deeply embarrassed
about raising a concern. In my professional expe­
rience, it is very rare for adult ESL students to di­
rectly criticize an instructor. I told the students I
would visit the classroom several times over the
coming weeks in order to more closely observe in­
struction and support the teacher to better ad­
dress student needs.

App. 41
7.

I conducted an observation on November 1, 2012.
I noted that Plaintiff was doing a majority of the
talking during class, calling on students only to
speak or read a single word. Plaintiff was giving
instructions orally, which students were not al­
ways understanding.

8.

The classroom was marked by many missed op­
portunities for language development. Satisfac­
tory adult ESL instruction engages ah students in
speaking and reading practice and deliberately
boosts students’ confidence and comfort with tak­
ing linguistic risks. Plaintiff’s failure to provide
comfortable opportunities to generate language
was holding back their language development.

9.

Following my observation, I discussed my findings
and recommendations with Plaintiff. She appeared
to accept my findings and indicated a willingness
to improve.

10. I observed Plaintiff’s class again on November 14,
2012. When I entered the classroom after the start
of class, Plaintiff was wearing headphones. Music
from the headphones was audible to the class. In
my opinion, failing to engage linguistically with
ESL students during class time is conduct unbe­
coming of a professional.
11. After the observation, I discussed my findings and
recommendations with Plaintiff. She appeared to
understand why I was concerned about the head­
phones incident, and committed to improving her
instruction.
12. I did not see a marked improvement in Plaintiff’s
performance over the remainder of the school year.

App. 42
I observed no further unprofessional conduct ris­
ing to the level of the headphones incident, but
Plaintiff’s instruction continued to concern me.
13. I left Adult School at the end of the 2011-12 school
year. Because I was leaving the school and wanted
to give my replacement, Joy Chua, the freedom to
make her own staffing decisions, I did not dismiss
any teachers at the end of that year. However, I did
discuss staff performance issues with Joy before
she took over. These included the issues I had ob­
served with Plaintiff.
14. During Joy’s time as Vice Principal, I gained con­
fidence in her judgment as an administrator. Her
values are solid, and include a deep commitment
to social justice. I saw nothing that would lead me
to believe that she would judge an employee based
on race rather than performance.
Executed on June 13, 2017
ALAMEDA. California
/s/

Alysse Castro
Alysse Castro

App. 43
EXHIBIT 31
bi'th ,|A^
ob‘;l,s

4

a
r:4

¥

<0As i,h

c\»<s.V*’,v>

C|AtV**

\i r/' ”

'T

i'
l\

4

j

ijjf

[1

That is president Bush father

2

That is president Obama

3.

That is president Bush son

4

That is president Clinton

5.

That is president [Jimmy] Carter.]

'iCv.
31,

App. 44

{| -This is a picture of five presidents of the United
States of America.
§ - Two of them are Father and son there name are
Bush
[H - And the other three there name were Barak Obama,
Bill Clinton, and Jimmy Carter.
§ - Two U.S. Presidents are fathe and son thier nams
are Bush.
[3] - And the other three U.S. Presidents
Their nams are Obama, Bill Clinton, and Jimmy
Carter.]

App. 45
EXHIBIT 35
LOUIS A. LEONE, ESQ. (SBN 099874)
BRIAN DUUS, ESQ. (SBN 263403)
JIMMIE E. JOHNSON, ESQ. (SBN 223344)
LEONE & ALBERTS
2175 N. California Blvd., Suite 900
Walnut Creek, CA 94596
Tel: (925) 974-8600
Fax: (925) 974-8601
E-Mail: lleone@leonealberts.com
bduus@leonealberts.com
jj ohns on@leonealberts. com
Attorneys for Defendant
ALAMEDA UNIFIED SCHOOL DISTRICT
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 3:16-cv-06279-JST
DEFENDANT ALAMEDA
UNIFIED SCHOOL
v.
DISTRICT’S NOTICE OF
ALAMEDA UNIFIED MOTION AND MOTION
SCHOOL DISTRICT, FOR SUMMARY
JUDGMENT, OR IN THE
Defendant. ALTERNATIVE PARTIAL
SUMMARY JUDGMENT;
MEMORANDUM OF
POINTS AND AUTHORITIES
IN SUPPORT THEREOF
DATE: April 19, 2018
TIME: 2:00 pm
PLACE: Crtrm. 9

JUDY LONG,
Plaintiff,

Trial Date: None Set

App. 46
TO PRO PER PLAINTIFF JUDY LONG:
Please take notice that on April 19, 2018, at 2:00
p.m., or as soon thereafter as counsel and Pro Per
Plaintiff JUDY LONG (“Plaintiff”) may be heard by
the above-entitled Court, located at 450 Golden Gate
Avenue, San Francisco, California 94102, Courtroom 9,
19th Floor; Defendant ALAMEDA UNIFIED SCHOOL
DISTRICT (“District”) will and hereby does move the
Court pursuant to Federal Rule of Civil Procedure 56,
Civil Local File 56, and this Court’s Standing Order for
All Civil Cases Before District Judge Jon S. Tigar, for
an order of

offers nothing but speculation that the employment ac­
tions were racially motivated; and (3) offers noting [sic]
but speculation that other African-American employees
were not still working at the school and/or were hired
thereafter.
E. Plaintiff’s “Me Too” Evidence is Not Based
on “Similarly Situated” Employees
In addition to needing first-hand testimony of nonspeculative facts, Long must proffer comparative em­
ployees who are “similarly situated” to her. Moore v.
Donahoe, 460 F. App’x 661, 663 (9th Cir. 2011). To that
end, “individuals are similarly situated when they have
similar jobs and display similar conduct.” Vasquez v.
County of Los Angeles, 349 F.3d 634, 641 (9th Cir.
2004). Obviously, the unnamed custodian and security
guard do not qualify as “similarly situated” to Long due

App. 47
to their distinctly different occupations. Likewise, even
to the extent that the GED teacher could be considered
as having a similar job to Long, who taught ESL rather
ran GED classes, the comparative conduct was still
distinctly different. Again, Long was terminated in the
middle of the school year due to poor performance. The
GED teacher, on the other hand, was originally offered
a contract renewal at the end of the school year, but
that offer was later rescinded for unknown reasons.
Thus, the GED teacher fails to qualify as a source of
“me too” testimony, as well. In short, none of the prof­
fered “me too” evidence is admissible because none of
the employees in question are “similarly situated” to
Long.
F.

The “Me Too” Evidence Is Too Small of a
Sample Size to Satisfy the Prima Facie
Standard

Finally, even if admissible, the “me too” evidence
proffered by Plaintiff does not save her discrimination
claims. Plaintiff seeks to proffer “me too” evidence of
only three other employees. Such a small sample size
is insufficient to establish circumstances suggesting
an inference of discrimination. Sengupta v. MorrisonKnudsen Co., Inc., 804 F.2d 1072, 1075-76 (9th Cir.
1986) (fact that four of five employees laid off in a pool
of 28 employees were African-American insufficient be­
cause “statistical evidence derived from an extremely
small universe . . . has little predictive value and must
be disregarded”); Diaz u. Eagle Produce Ltd. Partnership,

App. 48
521 F.3d 1201, 1209 (9th Cir. 2008) (“two data sets of
sixteen workers are too
*

*

*

App. 49
EXHIBIT 37
LOUIS A. LEONE (SBN 099874)
BRIAN A. DUUS (SBN 263403)
LEONE & ALBERTS
2175 N. California Blvd., Suite 900
Walnut Creek, CA 94596
Tel: (925) 974-8600
Fax: (925) 974-8601
E-Mail: lleone@leonealberts.com
bduus@leonealberts.com
scassaday@leonealberts.com
Attorneys for Defendant
ALAMEDA UNIFIED SCHOOL DISTRICT
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 3:16-CV-06279-JST
DEFENDANT ALAMEDA
UNIFIED SCHOOL
v.
DISTRICT’S RESPONSES
ALAMEDA UNIFIED TO PLAINTIFF JUDY LONG’S
SCHOOL DISTRICT, INTERROGATORIES,
SET ONE
Defendant.
Trial Date: None Set

JUDY LONG,
Plaintiff,

PROPOUNDING PARTY: Plaintiff JUDY LONG
RESPONDING PARTY: Defendant ALAMEDA UNI­
FIED SCHOOL DISTRICT
SET NO.:

1

App. 50

RESPONSES TO INTERROGATORIES
INTERROGATORY NO. 1:
Identify evening custodian (6:00 PM to 9:00 PM)
at Alameda Adult School, 1900 3rd Street, Alameda,
CA 94501 employed from August 2013 to November
2013; first name, middle name or middle initial, last
name, date of birth, last known address, city, state, zip
code, telephone number including area code, and per­
sonal email address(es).

On December 17, 2013, Plaintiff was given the op­
tion to resign effective immediately, or to be released
from her employment, with her last day of work on De­
cember 20, 2013. Plaintiff chose not to resign and, ac­
cordingly, she was released from her employment on
December 20, 2013.
INTERROGATORY NO. 3:
Identify each of Plaintiff’s administrators from
January 2010 until Plaintiff’s termination, and the
time period for each person’s supervision.
RESPONSE TO INTERROGATORY NO 3:
Objection. This interrogatory is vague and ambig­
uous as to “Plaintiff’s administrators” and “each per­
son’s supervision.” Without waiving these objections,
and to the extent Plaintiff seeks the identity of the

App. 51
Adult School principals that supervised her since Sep­
tember 2010, Defendant responds:
Alysse Castro (Principal), September 2010 to Sep­
tember 2013;
Joy Chua (Principal), September 2013 to present.
INTERROGATORY NO. 4:
Identify the person who was involved in making
the decision to terminate plaintiff’s employment.
RESPONSE TO INTERROGATORY NO. 4:
Objection. This interrogatory is vague and ambig­
uous as to “person” (singular). Without waiving this
objection, and to the extent Plaintiff is asking Defend­
ant to identify the person ultimately responsible for re­
leasing Plaintiff from her employment with the Adult
School, Defendant responds:
Adult School Principal Joy Chua, whose decision
was approved by the District’s Governing Board.
INTERROGATORY NO. 5:
All communication concerning the factual alle­
gations or claims at issue in this lawsuit among or
between Plaintiff’s school principal and Defendant’s
human resources representatives.

